                              - -
                     CLOSEOUT FOR M91020012
     This case was brought to the attention of OIG by Dr.
(the complainant) on June 26, 1990.          She was formerly a
postdoctoral fellow in the laboratory of Dr. -(the        subject)




                               -
of the                                      In a telephone call to
OIG,   the    complainant   alleged    intellectual    theft   and
misappropriation of patent rights. In a February 12, 1991 letter
to OIG, she recounted the events that were the basis for her
complaints and subsequently sent OIG additional materials relevant
to her law suit against the subject and his university.
     The complainant began work      the subject's laboratory
1983, bring$ng with her a                          with certain
scientifically interesting and pot%ntially commercially valuable




-0           The subject was the PI on this award, and the
complainant was the co-PI. The complainant contends that she then
made valuable discoveries. Her alleged discoveries led her and the
subject to jointly file a patent disclosure form with the
university in January, 1987. The university informed NSF of the
alleged invention. Insofar as the allegations involve a patent
application based on NSF sponsored research, OIG determined that we
had jurisdiction over those allegations that might constitute
misconduct in science, even if the allegations concerned events
that took place after the NSF grant was closed.
     OIG concluded that there was no evidence of intellectual theft
in this case.     The complainant consistently characterized the
subject as a collaborator, and the subject always presented the
work in ways that indicated that the complainant had major
responsibility for it. The subject 's claims of credit for the
work done in a laboratory he headed under an award for which he was
PI do not seriously deviate from accepted practice. The subject
did not misrepresent himself as doing the      science" that led to
the alleged discovery or misrepresent the complainant's
contribution to that alleged discovery.
    The allegation of misappropriation of patent rights is based
on the subjectls unilateral decision to withdraw the patent
                           page 1 of 2                      M91-12
                      CLOSEOUT FOR M91020012
disclosure.    The subject claims to have doubted whether the
discovery was genuine, and he sought independent verification from
other scientists working in his laboratory. When the complainant
refused to permit these other scientists access to the materials
necessary to verify her results, the subject asked the complainant




         -
to leave his laboratory, but offered her full rights to the alleged
discovery.   There is no evidence that the subject claimed the
alleged discovery as his own.         By withdrawing the patent
disclosure, the subject made it possible for the complainant to
pursue the commercial possibilities of her alleged discovery
independent of the subject or his university. The withdrawal did
not jeopardize the complainant's priority claims for her discovery,
since there is no evidence that other scientists were working on
the same            The complainant offers no evidence, beyond
unsubstantiated rumors, that the subject ever attempted to exploit
the commercial potential of the complainant's alleged discovery.
OIG was unable to examine the only two NSF proposals that the
subject submitted on this topic for evidence of misconduct because
NSF no longer has copies of them.
     The complainant takes umbrage at the subject's decision to
assign additional scientists to work on the project the complainant
brought to his laboratory. But the customs of the scientific
community accord the subject, as PI on a grant to develop the
complainant's research ideas and head of the laboratory, broad
discretion about how to meet his grant obligations. OIG concluded
that the subject's actions did not seriously deviate from the
accepted practices when PIS disagree with their co-PIS about how to
accomplish the work and verify the results of their grant supported
research.
     The complainant made numerous allegations of unfair treatment
by the subject and his university. These have been resolved in
court.   The court found that the complainant's employment was
terminated without sufficient notice, but in other respects it
found for the subject and his university.           None of these
allegations involves matters where there is reason to believe that
the standards of the scientific community are meaningfully
different from those of the wider society and its courts.       OIG
therefore believes that we should treat the court's determination
as authoritative in this case and that it is superfluous and unfair
to reexamine these allegations on their merits.
     This inquiry is closed and no further action will be taken on
this case.




                           page 2 of 2
